IN THE SUPREME COURT OF THE UNITED STATES

KELLY, ERIC F.
Petitioner
vs.

No:

19-1011

USA
WAIVER
The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

NOEL J. FRANCISCO
Solicitor General
Counsel of Record
February 20, 2020
cc:
ZACHARY D. SPILMAN
29 N. MAIN STREET #97
SHERBON, MA 01770
CHRISTOPHER D. CARRIER
JUDGE ADVOCATE DEFENSE
APPELLATE DIVISION
U.S. ARMY LEGAL SERVICES
AGENCY
9275 GUNSTON ROAD
FORT BELVOIR, VA 22060

